                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                         FINAL REPORT:

                 ADMINISTRATION OF PAYMENTS
                   RECEIVED UNDER THE HELP
                AMERICA VOTE ACT BY THE STATE
                 OF INDIANA ELECTION DIVISION

                  MAY 1,2003 THROUGH AUGUST 31,2006




Report No.
E-HP-IN-13-06
May 2007
                         U.S. ELECTION ASSISTANCE COMMISSION
                                   OFFICE OF INSPECTOR GENERAL
                                 1225 New York Ave. NW - Suite 1100
                                       Washington, DC 20005



                                                                                     May 11, 2007

Memorandum

To:         Thomas Wilkey
            Executive Director

From:       Curtis W. Crider
            Inspector General

Subject:    Final Audit Report - Administration of Payments Received Under the Help America
            Vote Act by the State of Indiana Election Division
            (Assignment Number E-HP-IN-13-06)

         We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received under the
Help America Vote Act (HAVA) by the State of Indiana Election Division (Election Division).
The contract required that the audit be done in accordance with U.S. generally accepted
government auditing standards. Clifton Gunderson is responsible for the attached auditor’s
report and the conclusions expressed therein.

          In its audit of the Election Division, Clifton Gunderson concluded that, except for the
accounting and reporting of the interest and matching funds, the Election Division generally
accounted for and expended HAVA funds in accordance with the HAVA requirements and
complied with the financial management requirements established by the U.S. Election
Assistance Commission. This includes compliance with section 251 requirements for an election
fund and for maintenance of a base level of state outlays. Also, Clifton Gunderson identified a
need for the Election Division to improve its accounting for interest and financial reporting,
provide for the shortfall in state matching funds, and strengthen property controls.

       In an April 27, 2007 response to the draft report (Appendix A), the Election Division
agreed with the findings and recommendations related to the reporting issues, the shortfall in state
matching funds, and the loss of the compounding effect caused by delays in posting interest earned.
The Election Division disagreed with the recommendations regarding the State’s responsibility over
the controls of property at the county level, and the lost interest from delays in posting the state
matching funds. The response indicated that the Election Division:

      o had amended and submitted corrected SF-269 reports, and procedures would be
        implemented to improve the reporting process.

      o would review the auditor’s interest computations to determine the correct interest
        differential, and would transfer the additional funds to the appropriate HAVA accounts.
        Also, the Treasurer’s office would begin computing interest monthly to forestall this
        problem in the future.
    o included a request in the FY 2008-09 biennial budget to fund the state matching
      shortfall, but would not include the interest on delayed depositing of matching funds,
      since they believed they complied with the regulations.

    o does not believe they have a responsibility to monitor the equipment owned by the
      counties; however, they would advise the counties of the state and federal regulations
      regarding property controls and procedures.

        Please provide us with your written response to the recommendations included in this
report by July 11, 2007. Your response should contain information on actions taken or planned,
including target dates and titles of EAC officials responsible for implementing the
recommendations.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125
  PERFORMANCE AUDIT REPORT

  ADMINISTRATION OF PAYMENTS
   RECEIVED UNDER THE HELP
AMERICA VOTE ACT BY THE STATE OF
   INDIANA ELECTION DIVISION

   May 1, 2003 Through August 31, 2006


    UNITED STATES ELECTION
    ASSISTANCE COMMISSION
                                                      TABLE OF CONTENTS




                                                                                                                                              PAGE

EXECUTIVE SUMMARY...........................................................................................................................1

BACKGROUND .............................................................................................................................................2

AUDIT OBJECTIVES ..................................................................................................................................3

SCOPE AND METHODOLOGY.............................................................................................................3

AUDIT RESULTS..........................................................................................................................................4

APPENDICES

Appendix A: ELECTION DIVISIONS’ RESPONSE TO AUDIT RESULTS...........................9

Appendix B: AUDIT METHODOLOGY .............................................................................................17

Appendix C: MONETARY IMPACT AS OF AUGUST 31, 2006 ...................................................18
A1
EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the State of Indiana
Election Division (IED) for the period May 1, 2003 through August 31, 2006 to determine whether
the IED used payments authorized by Sections 101, 102, and 251 of the Help America Vote Act of
2002 (HAVA or the Act) in accordance with HAVA and applicable requirements; accurately and
properly accounted for property purchased with HAVA payments and for program income, and met
HAVA requirements for Section 251 funds for an election fund, for a matching contribution, and
for maintenance of a base level of state outlays. In addition, the Commission requires states to
comply with certain financial management requirements, specifically:

     •     Comply with the Uniform Administrative Requirements For Grants And Cooperative Agreements With
           State And Local Governments (also known as the “Common Rule”) as published in the Code of
           Federal Regulations 41 CFR 105-71.

     •     Expend payments in accordance with cost principles for establishing the allowance or
           disallowance of certain items of cost for federal participation issued by the Office of
           Management and Budget (OMB) in Circular A-87.

     •     Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on the audit objectives. Because of inherent limitations, a study and
evaluation made for the limited purposes of our review would not necessarily disclose all weaknesses
in administering HAVA payments.

Except for the accounting and reporting of the interest and state matching funds, our audit
concluded that IED generally accounted for and expended HAVA funds in accordance with the
requirements mentioned above. This includes compliance with section 251 requirements for an
election fund and for maintenance of a base level of state outlays. We also identified four areas
needing IED’s management attention:

     •     There were reporting errors on the Financial Status Reports, Form 269, including interest
           earned on HAVA funds deposited with the State of Indiana that was not reported and
           expenditures that were incorrectly reported.

     •     Interest earnings were lost as a result of delayed receipt of state matching funds, the shortfall
           in state matching funds transferred to the HAVA accounts, and the lack of the
           compounding because interest was not deposited to the HAVA accounts timely.




Offices in 15 states and Washington, DC                1                                            h
    •   As of August 31, 2006, there was a shortfall in the amount of funds provided by the state as
        matching funds, as well as lost interest earnings because of a delay in providing the matching
        funds.

    •   The physical security over voting equipment purchased with HAVA funds and controlled by
        the counties need improvement.

We have included in this report the IED’s formal responses to our draft report and recommendations
dated April 27, 2007. The IED agreed with the recommendations related to reporting issues, the
shortfall in state matching funds, and the loss of the compounding effect caused by delays in posting
interest earned. The IED disagreed with the recommendations regarding the lack of controls over
property at the county level, and the lost interest from delays in posting the state matching funds.

BACKGROUND

The Help America Vote Act of 2002 created the U.S. Election Assistance Commission to assist
states and insular areas with the improvement of the administration of Federal elections and to
provide funds to states to help implement these improvements. HAVA authorizes payments to states
under Titles I and II, as follows:

    •   Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
        uniform and nondiscriminatory election technology and administration requirements,
        improving the administration of elections for Federal office, educating voters, training
        election officials and poll workers, and developing a state plan for requirements payments.

    •   Title I, Section 102 payments are available only for the replacement of punch card and lever
        action voting systems.

    •   Title II, Section 251 requirements payments are for complying with Title III requirements for
        voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •   Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” (Section 253)(5)).

    •   “Maintain the expenditures of the State for activities funded by the [requirements] payment at
        a level that is not less than the level of such expenditures maintained by the State for the fiscal
        year ending prior to November 2000.” (Section 254 (a) (7)).

    •   Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the Federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” (Section 254 )(1)).




                                                    2
AUDIT OBJECTIVES

The objectives of our audit were to determine whether the State of Indiana:

    1. Used payments authorized by Sections 101, 102, and 251 of the Help America Vote Act
       (HAVA) in accordance with HAVA and applicable requirements;

    2. Accurately and properly accounted for property purchased with HAVA payments and for
       program income;

    3. Met HAVA requirements for Section 251 funds for an election fund, for a matching
       contribution, and for maintenance of a base level of state outlays.

In addition, to account for HAVA payments, the Act requires states to maintain records that are
consistent with sound accounting principles, that fully disclose the amount and disposition of the
payments, that identify the project costs financed with the payments and other sources, and that will
facilitate an effective audit. The Commission requires states receiving HAVA funds to comply with
certain financial management requirements, specifically:

    4. Comply with the Uniform Administrative Requirements For Grants And Cooperative Agreements With
       State and Local Governments (also known as the “Common Rule”) as published in the Code of
       Federal Regulations at 41 CFR 105-71.

    5. Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

    6. Submit detailed annual financial reports on the use of Title I and Title II payments.1


SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the IED from May 1, 2003 through August
31, 2006.

Funds received and disbursed from May 1, 2003 (program initiation date) to August 31, 2006 (41-
month period):




1 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102,
and 251 funds. For Sections 101 and 102, reports are due on February 28 for the activities of
the previous calendar year. For Section 251, reports are due by March 31 for the activities of the
previous fiscal year ending on September 30.


                                                  3
                                              AMOUNT            AMOUNT               DATA
                  TYPE OF PAYMENT            RECEIVED          DISBURSED             AS OF

                           101                  $6,309,538        $1,617,285       8/31/2006
                           102                   9,601,275         9,601,052       8/31/2006
                           251                  51,144,283        50,211,822       8/31/2006

                                               $67,055,283       $61,430,159

         Note:   The above table does not include auditors’ adjustments for the state matching
                 shortfall ($129,919) and additional interest earned through August 31, 2006
                 ($2,093,036) that was not posted to financial records as of August 31, 2006, but
                 should be made available for the HAVA program.

Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on the audit objectives. Because of inherent limitations, a study and
evaluation made for the limited purposes of our review would not necessarily disclose all weaknesses
in administering HAVA payments.

Except for the accounting and reporting of the interest and state matching funds, our audit
concluded that IED generally accounted for and expended HAVA funds in accordance with the
requirements mentioned above. This includes compliance with section 251 requirements for an
election fund and for maintenance of a base level of state outlays. We also identified areas needing
IED’s management attention, as described below:

I.          Financial Reporting

The Financial Status Report, Standard Forms 269, did not include all of the required information or
included incorrect information.

     •    Interest earned on HAVA funds deposited with the State of Indiana in the Sections 101, 102
          and 251 accounts was not reported on Form SF 269. Interest income aggregating $2,283,208
          through June 30, 2006, was earned on HAVA funds deposited with the state, and should have
          been included in the total receipts on Line 10.o. on the financial forms at each reporting
          period. The interest earned for the reporting year and the cumulative interest earnings to the
          date of the report should be reported in the explanation block on Line 12.

          HAVA, Section 254(b) (1), Requirements for Election Fund states that, “For purposes of
          subsection (a) (5), a fund described in this subsection with respect to a State is a fund which is
          established in the treasury of the State government, which is used in accordance with



                                                        4
     paragraph (2), and which consists of the following amounts: (D) Interest earned on deposits of
     the fund.” Since interest is included in the fund balance, it should also be reported with the
     federal funds authorized on the SF 269, and explained in Line 12, Remarks.

 •     The expenditures reported on the Section 102 and Title II Financial Status Report, SF 269,
       for 12/31/05 and 9/30/05, did not agree with the amounts recorded to date in the HAVA
       financial records, as follows:

              The 12/31/05 expenditures for Section 102 were underreported by $261,086 as that
              would have placed the balance of funds available in a negative position on the SF
              269. The negative balance in this fund was subsequently recorded by interest earning
              and transfers from Title II funds prior to 7/31/05.

              The 9/30/05 expenditures for Title II funds reported on the SF 269 exceeded the
              total to date in the financial system by $1,061,458.

       The instructions for the Financial Status Report, SF 269, states that for Line 10a – “Enter
       total gross program outlays………..For reports prepared on a cash basis, outlays are the sum
       of actual cash disbursements for direct costs for goods and services, the amount of direct
       costs for goods and services, the amount of indirect expense charged, the value of in-kind
       contributions applied, and the amount of cash advances and payments made to
       subrecipients. For reports prepared on an accrual basis, outlays are the sum of actual cash
       disbursements for direct charges for goods and services, the amount of indirect expense
       incurred, the value of in-kind contributions applied, and the net increase or decrease in the
       amounts owed by the recipient for goods and other property received, for services
       performed by employees, contractors, subgrantees and other payees, and other amounts
       becoming owed under programs for which no current services or performances are required,
       such as annuities, insurance claims, and other benefit payments.”

Recommendations:

1. Ensure that the Financial Status Report, SF 269 contains complete and accurate information
   prior to filing, as identified on EAC’s website at http://www.eac.gov/docs/Model 269 Title II
   final.pdf.

2. Contact USEAC to determine if amended reports will have to be filed for prior periods to
   provide the correct information.

IED’s Response:

The IED agrees with this finding and stated that all financial reports had been reviewed and
amendments were submitted to EAC’s OIG on April 5, 2007. Also, procedures had been revised
internally, and with the State Treasurer’s and State Auditor’s offices, to improve the reporting
process for future reports submitted for the Indiana HAVA program.




                                                5
II.       Interest Earned

The State treasurer’s office computed interest earned by the HAVA program through June 30, 2006,
totaling $2,200,179; however, during our review, we noted the following:

      •   no interest was recorded in the HAVA accounts until April 2006. Since the account
          balances used to determine the amount did not include the interest earned to date, earnings
          were lost from the compounding effect.

      •   State matching funds were deposited to the HAVA Sec. 251 funds in installments over a
          twenty-two month period, and should have been included in full at the date of receipt of the
          requirements payments. There was lost interest because of the delayed receipt of funds, as
          noted in recommendation 4.

      •   there was a shortage in the amount of State matching funds transferred to the HAVA
          account, resulting in lost interest on the shortage amount, as noted in recommendation 4.

      •   interest earnings for the period from inception of the program through September 30, 2004
          totaling $332,341, was recorded in the HAVA accounts in April 2006.

The estimated financial impact of these observations is determined as follows:

          Interest earnings computed by the State treasurer            $2,200,179
          Interest earnings for July and August 2006                      142,169
          Lost interest from the shortage in State matching funds           8,142
          Lost interest from delayed deposit of State matching funds
                 and the lack of compounding effect                        74,887

          Total interest through 8/31/06 as recalculated               $2,425,377

          Less interest recorded in April 2006                            332,341

          Estimated understatement of HAVA accounts – 8/31/06          $2,093,036

Recommendation:

3. Verify the amount of interest earned on HAVA funds, based on the timely depositing of all
   monies owed the election fund, and update the election fund account(s) with the additional
   funds.

IED’s Response:

The IED agreed that the earned interest was not deposited in a timely manner, and stated that the
Treasurer of the State of Indiana’s office was reviewing the calculations worksheet prepared by the
Clifton Gunderson auditor to verify the difference between the amounts of interest earned and
deposited. After verifying the correct interest differential, a transfer of funds would be made to the
appropriate HAVA accounts.


                                                   6
They also stated that the Treasurer’s office, in the future, would make the interest calculations
monthly instead of quarterly to prevent future discrepancies.

III.     State Matching Funds

As of August 31, 2006, there is a $129,919 shortfall in the amount of state matching funds required
to augment Section 251 HAVA funds received, because the requirement to provide an additional
amount equal to 5% of the state matching funds was not considered. The method of computing the
amount of the state matching funds, as set forth in HAVA Section 253(b)(5), is to divide the
requirements payments to be received from the federal government by 95%, and then multiply the
grossed up number by 5%. For Indiana, the $48,544,987 Section 251 proceeds, divided by 95%,
equals $51,099,986. The difference between the two numbers is the state matching requirement of
$2,554,999, compared to the amount provided by the state totaling $2,425,080.

In addition, 100% of the state matching funds transferred to the HAVA accounts were not
deposited in advance of receiving the Sec. 251 requirements payments. They were paid in
installments during the period June 19, 2004 through April 1, 2006, resulting in lost interest income
estimated to be $8,142.

Recommendations:

4.     Ensure that the state matching funds shortfall of $129,919 is transferred to the HAVA election
       fund.

5. Determine the actual amount of lost interest income, based on the required state matching funds
   total from the date of receipt of the Section 251 requirements payment from the federal
   government, and transfer the earnings to the HAVA election fund.

IED’s Response:

The IED agreed that there was an underpayment of the amount of state matching funds, due to
unfamiliarity with the matching guidelines, and have included a request in the 2008-09 biennial
budget to fund the difference. As regards the lost interest, the IED believes that the state matching
funds had been properly appropriated, in accordance with Indiana budget processes. Allotments of
those funds were made prior to expenditure on the HAVA program, and at no time did HAVA
expenditures allocated to the state matching funds exceed the balance of those funds.

Auditors’ Response:

We believe that the HAVA regulations are very explicit, as set forth in Section 253, where it states
that:

“(a) In General.-A State is eligible to receive a requirements payment for a fiscal year if the chief
executive officer of the State, or designee, in consultation and coordination with the chief State
election official, has filed with the Commission a statement certifying that the State is in compliance
with the requirements referred to in subsection (b)……”




                                                  7
“(b)(5) The State has appropriated funds for carrying out the activities for which the requirements
payment is made in an amount equal to 5 percent of the total amount to be spent for such activities
(taking into account the requirements payment and the amount spent by the State) and, in the case
of a State that uses a requirements payment as a reimbursement under section 251(c)(2), an
additional amount equal to the amount of such reimbursement.”

It appears that the intent of Section 253(a) is that the requirements set forth in Section (b) should be
met as a condition of receiving any requirements payments from the federal government.

IV.     Personal Property Records and Inventory Control

The personal property records and inventory control are maintained by the counties. During our
physical inventory audit of voting machines at one of the counties selected for testing, we observed
that access to the machines was not adequately controlled since more than 20 employees worked in
the warehouse had access to the machines. The warehouse where the machines were stored was
shared with the court house. There was no separation between the two spaces and entry was
obtained through the same door.

The Code of Federal Regulations at 41CFR105-71.132(3) states that a control system must be
developed to ensure adequate safeguards to prevent loss, damage or theft of the property. Any loss,
damage or theft shall be investigated.

Recommendation:

6. The State should make the counties are aware of the federal guidelines and the USEAC guidance
   in the pamphlet entitled Quick Start Management Guide issued in September 2006 relating to the
   security of voting machines and other equipment.

IED’s Response:

The IED disagreed with the recommendations and stated that:

It is the State’s position that the voting equipment acquired by the county, either with HAVA
reimbursed funds or otherwise, is the responsibility of the county. Additionally, each county is
responsible for determining the type of inventory records and physical controls.

However, the Indiana Secretary of State and IED will contact all the counties, and provide them the
Indiana State Board of Accounts’ guidelines for complying with federal and state procedural matters.
The counties will also receive a copy of 41 CFR 105-71.132 covering federal guidelines for property
controls.

Auditor’s Response:

We concur with the proposed steps to be taken by the IED, and encourage the State to consider
requesting counties to certify, on an annual basis, that they are in compliance with the minimum
requirements of maintaining personal property and the property records. This certification would
help the State ensure that property purchased with federal funds is properly controlled.



                                                   8
    Appendix A




9
10
11
12
13
14
15
16
                                                                                        Appendix B

                                    AUDIT METHODOLOGY


Our audit methodology included:

•   Assessing audit risk and significance within the context of the audit objectives.

•   Obtaining an understanding of internal control that is significant to the administration of the
    HAVA funds.

•   Understanding relevant information systems controls as applicable.

•   Identifying sources of evidence and the amount and type of evidence required.

•   Determining whether other auditors have conducted, or are conducting, audits of the program
    that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•   Interviewed appropriate IED employees about the organization and operations of the HAVA
    program.

•   Reviewed prior single audit report and other reviews related to the State of Indiana’s financial
    management systems and the HAVA program for the last 2 years.

•   Reviewed policies, procedures and regulations for the IED’s management and accounting
    systems as they relate to the administration of HAVA programs.

•   Analyzed the inventory lists of equipment purchased with HAVA funds.

•   Tested major purchases and supporting documentation.

•   Tested randomly sampled payments made with the HAVA funds.

•   Verified support for reimbursements to local governments (counties, cities, and municipalities).

•   Reviewed certain State of Indiana laws that impacted the election fund.

•   Examined appropriations and expenditure reports for state funds used to maintain the level of
    expenses for elections at least equal to the amount expended in fiscal year 2000 and to meet the
    five percent matching requirement for section 251 requirements payments.

•   Reviewed/examined information regarding source/supporting documents kept for maintenance
    of effort and matching contributions.


                                                  17
•   Evaluated compliance with the requirements for accumulating financial information reported to
    the Commission on the Financial Status Reports, Form SF 269, accounting for property,
    purchasing HAVA related goods and services, and accounting for salaries.

•   Verified the establishment and maintenance of an election fund.

•   Verified whether the State of Indiana has sustained the state’s level of expenditures for
    Elections.




                                                18
                                                                 Appendix C



MONETARY IMPACT AS OF AUGUST 31, 2006

                                                 Additional Funds
                        Description                for Program
Interest                                                $2,084,036

State Match Delayed Deposit Interest Shortfall              8,142

State Match Shortfall                                     129,919

Totals                                                 $2,222,955




                                      19
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
